V

No.

IN THE SUPREME COURT OF THE UNITED STATES
Don Edward Carter,
Petitioner,

v.

Shawn Phillips, Warden,
Respondent.

ON PETITION FOR WRIT OF CRTIORARI TO
THE SIXTH CIRCUIT COURT OF APPEALS
APPENDIX FOR
PETITION FOR WRIT OF CERTIORARI

Su bmittied by__
Don Edward Carter, 273092
BCCX, Site 2, Unit 5
1045 Horsehead Rd.
Pikeville, TN. 37367

TABLE OF CONTENTS

1.
2.
3.

Don Edward Carter v. Phillips, No. 1: 19-cv-01100STA-jay (W.D.TN. 07/29/2020)...........................................

1

Don_ Edward _.C_.ax-ter—v-._ Phillips_, _No J 20-6038 , 2021 WL
867105 (6th Cir. 04/04/2021)'................................................

6

Don Edward Carter v. Phillips, No. 20-6038, (6th
Cir. Motion for Reconsideration En Banc /
/

)/ 8

•

Carter v. Phillips | WestlawNext

6/10/2b21

• WESTLAW
Carter v. Phillips
United States District Court, W.D. Tennessee, Eastern Division, i July 29, 2020 j Slip Copy i 2020 WL 4352753

(Approx. 5 pages)

2020 WL 4352753
Only the Westlaw citation is currently available.
United States District Court, W.D. Tennessee, Eastern Division.

Don Edward CARTER, Petitioner,
v.
Shawn PHILLIPS, Respondent.
Case No. i:i9-cv-onoo-STA-jay
Signed 07/29/2020
Attorneys and Law Firms
Don Edward Carter, Pikeville, TN, pro se.
John H. Bledsoe, Zachary Lewis Barker, Office of the Tennessee Attorney General and
Reporter, Nashville, TN, for Respondent.
ORDER DIRECTING CLERK TO MODIFY DOCKET, GRANTING MOTION TO DISMISS,
DENYING MOTION FOR PRODUCTION OF STATE COURT RECORDS AS MOOT,
DENYING CERTIFICATE OF APPEALABILITY, AND DENYING LEAVE TO APPEAL IN
FORMA PAUPERIS
S. THOMAS ANDERSON, CHIEF UNITED STATES DISTRICT JUDGE
*1 Petitioner Don Edward Carter has filed a pro se habeas corpus petition (the "Petition"),
pursuant to 28 U.S.C. § 2254 (ECF No. 1), as well as a document styled "Motion for
Production of Relevant Parts of the Record” (ECF No. 15). By his motion, he seeks an
order directing Respondent Shawn Phillips1 to file additional records from his state
criminal trial. Respondent has moved to dismiss the Petition as untimely (ECF No. 10) and
has not responded to the motion for production of records. For the following reasons, the
motion to dismiss is GRANTED and the motion for production of records is DENIED as
moot.

BACKGROUND
On June 10, 1996, the McNairy County, Tennessee, Grand Jury returned an indictment
charging Carter with two counts of first-degree premeditated murder for the fatal shooting
of his father and aunt. (ECF No. 9-1 at 13-14.) He was convicted as charged following a
jury trial and was sentenced to concurrent terms of life imprisonment. State v. Carter, 16
S.W.3d 762, 764 (Tenn. 2000). The Tennessee Court of Criminal Appeals (the "TCCA”)
affirmed the convictions (ECF No. 9-12), and Carter unsuccessfully appealed that decision
to the Tennessee Supreme Court. See Carter, 16 S.W.3d at 770.
Nearly eighteen years later, on January 18, 2018, Petitioner filed a state petition for post­
conviction relief. (ECF No. 9-18 at 3-50.) The petition was dismissed as untimely. (Id. at
58.) Carter appealed, arguing that he was entitled to equitable tolling. (ECF No. 9-20 at 5.)
The TCCA affirmed, and the Tennessee Supreme Court denied permission to appeal.
Carter v. State, No. W2018-00285-CCA-R3-PC, 2018 WL 6266166, at ‘5 (Tenn. Crim. App.
Nov. 30, 2018), appeal denied (Mar. 28, 2019).
DISCUSSION
On May 20, 2019, Carter placed his Petition into the prison mailing system for filing with the
Court. (ECF No. 1 at 14.) He asserts that his due process rights were violated when the
state courts determined that he was not entitled to equitable tolling of the state post­
conviction limitations period, that his attorney rendered ineffective assistance at trial, and
that the prosecution engaged in misconduct. On February 11,2020, Respondent moved to
dismiss the Petition as untimely. (ECF No. 10.) Carter filed a response in opposition to the
motion, arguing that he is entitled to equitable tolling of the limitations period. (ECF No. 14.)
A § 2254 petition is subject to a one-year limitations period, commencing from four possible
dates:

https://nextcorrectional.westlaw.com/Document/l311f00f0d25511eaa13ca2bed92d37fc/View/FuHText.html?docFamilyGuid=l3208ebc0d25511ea9b77e...

1/5

■

Carter v. Phillips | WestlawNext

6/10/2621

(A) the date on which the judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State action in
violation of the Constitution or laws of the United States is removed, if the applicant was
prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially recognized by the
Supreme Court, if the right has been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
*2 (D) the date on which the factual predicate of the claim or claims presented could
have been discovered through the exercise of due diligence.
28 U.S.C. § 2244(d)(1).
The one-year limitations period is tolled during the time "a properly filed application for
State post-conviction or other collateral review ... is pending!.]" 28 U.S.C. § 2244(d)(2). The
time bar is also subject to equitable tolling where the petitioner demonstrates “(1) that he
has been pursuing his rights diligently, and (2) that some extraordinary circumstance stood
in his way and prevented timely filing.” Holland v. Florida, 560 U.S. 631, 649 (2010)
(quoting Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005)) (internal quotation marks
omitted).2
In this matter, § 2244(d)(1)(A) applies, which means the federal limitations period was
triggered when Petitioner's convictions became final. Because Carter did not appeal his
convictions to the United States Supreme Court, they became final on July 16, 2000, which
was ninety days after the Tennessee Supreme Court affirmed them. See Bronaugh v. Ohio,
235 F.3d 280, 283 (6th Cir. 2000) (“[T]he one-year statute of limitations does not begin to
run until the time for filing a petition for a writ of certiorari for direct review in the United
States Supreme Court has expired," which is "ninety days following the entry of judgment
by the ‘state court of last resort[.]’") (quoting Sup. Ct. R. 13)). The limitations “clock" began
to run the next day, see id. at 285, and it expired 365 days later, on July 16, 2001. When
Carter placed his Petition in the prison mail system on May 20, 2019, he was late by nearly
eighteen years.3
As previously indicated, Petitioner does not deny that he initiated his federal habeas
proceeding well-beyond the expiration of the limitations period. He argues, however, that
he is entitled to equitable tolling on three grounds: his “[d]irect [a]ppeal counsel did not
advise him of the post-conviction avenue upon completion of his representation," he was
erroneously advised by "a prison approved legal-a[ide]... that he could not file] ] a post-'
conviction [petition] because he was time-barred,” and he “was mentally incompetent
during the applicable time and thereafter[.]“ (ECF No. 14-2 at 22-23.) Respondent argues
that the first two reasons are inadequate grounds for equitable tolling and that Petitioner
has not established that mental illness caused his untimely filing.
A. Direct Appeal Counsel’s Failure to Advise
*3 Petitioner's argument that he is entitled to equitable tolling because his direct appeal
counsel failed to tell him that he could pursue state post-conviction remedies is unavailing.
Most obviously, Petitioner does not explain how his ignorance of state post-conviction
remedies caused his failure to timely initiate his federal case. What is more, “[insufficient
legal advice is not enough to support equitable tolling in the Sixth Circuit." Steward v.
Moore, 555 F. Supp. 2d 858, 872 (N.D. Ohio 2008) (citing Jurado v. Burt, 337 F.3d 638,
644^15 (6th Cir. 2003)). Finally, “[t]he law is clear that a prisoner's lack of actual knowledge
about available legal remedies ... is not a sufficient basis for equitable tolling.” Dorantes v.
Genovese, No. 3:19-CV-00543, 2019 WL 6524888, at *2 (M.D. Tenn. Dec. 3, 2019)
(petitioner not entitled to equitable tolling on the ground that he was ignorant of state post­
conviction remedies) (citing Clinton v. Bauman, No. 10-11528, 2011 WL 282384 (E.D. Mich.
Jan. 25, 2011) (ignorance of state post-conviction remedies did not warrant tolling)).
B. Prison Legal Assistant's Incorrect Advice
Petitioner's argument that he is entitled to equitable tolling because a prison legal assistant
incorrectly informed him that a state post-conviction petition would be time-barred is also
not well-taken. As an initial matter, Petitioner does not explain how the allegedly erroneous
advice about the state statute of limitations affected his ability to file a timely petition for
federal relief. In addition, even if he could show that his reliance on the advice caused his
delay in filing his Petition, “reliance on ... unreasonable and incorrect [legal] advice ... is not

https://nextcorrectional.westlaw.com/Document/l311f00f0d25511eaa13ca2bed92d37fc/View/FuHText.html?docFamilyGuid=l3208ebc0d25511ea9b77e...

2/5

•

6/10/2t)21

Carter v. Phillips | WestlawNext
a ground for equitable tolling." Allen v. Yukins, 366 F.3d 396,403 (6th Cir. 2004) (citing
Jurado v. Burt, 337 F.3d 638, 644-45 (6th Cir. 2003)).
C. Mental Illness
Under Sixth Circuit case law, “a petitioner's mental incompetence, which prevents the
timely filing of a habeas petition, is an extraordinary circumstance that may equitably toll
AEDPA's one-year statute of limitations.” Ata v. Scutt, 662 F.3d 736, 742 (6th Cir. 2011). A
petitioner seeking equitable tolling for mental incompetence bears the burden of
demonstrating "that (1) he is mentally incompetent and (2) his mental incompetence
caused his failure to comply with AEDPA's statute of limitations.” Id. “In short, a blanket
assertion of mental incompetence is insufficient to toll the statute of limitations. Rather, a
causal link between the mental condition and untimely filing is required.” Id. (citing
McSwain, 287 F. App'x. 450, 456 (6th Cir. 2008)). ”[A]n evidentiary hearing is required
when sufficiently specific allegations would entitle the petitioner to equitable tolling on the
basis of mental incompetence which caused the failure to timely file.” Id. (citing McSwain,
287 F. App'x at 457-58; Hunterv. Ferrell, 587 F.3d 1304, 1309-10 (11th Cir. 2009) (per
curiam)). In assessing the need for a hearing, a district court must "determine if the factual
allegations are sufficient to support equitable tolling and [must] review the state court
record in order to establish whether petitioner's assertions are refuted by the record or
otherwise without merit.” Id.
In support of his allegation that mental illness prevented a timely filings Carter has
submitted documents prepared in 1996 by his attorney and mental health professionals
stating that he was being treated with psychotropic medications and that he suffered from
post-traumatic stress disorder, severe depression, and bi-polar disorder. (ECF Nos. 1-1 at
14-16.) As Respondent points out, however, Petitioner does not present specific factual
allegations or documentary evidence to support his general allegation that he was mentally
incompetent through July 2001, when the federal limitations period expired.
*4 Petitioner counters that he could prove that his mental illness persisted beyond 1996 if
he were allowed access to his prison mental health records. He asserts, however, that a
Tennessee Department of Corrections regulation prohibits him from doing so. The
argument is not well-taken.
,
It is true that the regulation, which Respondent submitted as an exhibit, tightly controls the
dissemination of an inmate's mental health records, even to the inmate himself. (See ECF
No. 10-2 at 2-3.) However, the regulation does allow an inmate to examine his records in
person in “consultation with the treating (or a knowledgeable) psychiatric/psychological
professional,” as long as the professional does not “believe[ ] that the content of the
psychological records should not be released to the inmate (or that they should be
released only in part or under special conditions due to the anticipated impact upon the
inmate)[.]” (Id. at 3.) Therefore, had Petitioner reviewed his records in person he
presumably could have presented specific factual allegations in this case to support his
general allegation that his mental illness persisted after 1996. As Respondent correctly
points out, however, Carter,has not alleged that he requested a review of his records.
Accordingly, the Court rejects his argument that, if not for the regulation, he could support

V

his claim of mental incompetence.4
But even assuming Petitioner could show that his mental health issues were severe
enough to render him incapable of filing his federal Petition during the limitations period
and for some time thereafter, the state court record shows that he was able to overcome
the impediment by January 18, 2018, at the latest. As noted above, Carter filed a state
post-conviction petition on that date. After the post-conviction court summarily dismissed
the petition as untimely, Petitioner actively pursued an appeal. See Carter, 2018 WL
6266166, at *1. A search of the Tennessee Appellate Court website shows that Carter,
proceeding pro se, filed the following documents in his post-conviction appeal: notice of
appeal, motion to proceed in forma pauperis, motion for permission to check-out the
appellate record, motion to correct or modify the record, brief in support of his appeal,
motion for status update, and reply brief.5 After the appellate court denied relief, Petitioner
filed a timely APA to the Tennessee Supreme Court. (ECF No. 9-25.) Petitioner then waited
nearly two months after his APA was denied on March 28, 2019, to file his Petition with this
Court.
Accordingly, on this record, Carter cannot show that his mental health issues prevented
him from filing the Petition earlier than May 2019, or that he diligently pursued his federal
rights once the impediment abated. See Pace, 544 U.S. at 419 (petitioner not entitled to
equitable tolling because, among other things, he “sat on” his federal rights “for five months
https://nextcorrectional.westlaw.com/Document/l311 f00f0d25511 eaa13ca2bed92d37fc/\/iew/FullText.html?docFamilyGuid=l3208ebc0d25511 ea9b77e...

3/5

■

Carter v. Phillips | WestlawNext

6/10/2021
5

iri=72678&Partv=True (last accessed July 2, 2020).

6

An evidentiary hearing on equitable tolling is not necessary in light of the
state court record.

7

If Petitioner files a notice of appeal, he must also pay the full $505.00
appellate filing fee or file a motion to proceed in forma pauperis and
supporting affidavit in the Sixth Circuit Court of Appeals within thirty days.

End of
Document

WestlawNext. ©2021 Thomson Reuters

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

fffjti THOMSON REUTERS
Thomson Reuters isWOp'providmg legal advice

https://nextcorrectional.westlaw.com/Document/l311f00f0d25511eaa13ca2bed92d37fc/View/FullText.html?docFamilyGuid=l3208ebc0d25511ea9b77e ...

5/5

Carter v. Phillips | WestlawNext

■ *6/2/2(321

- WESTLAW
Carter v. Phillips
United States Court of Appeals, Sixth Circuit. | March 4, 2021 i Not Reported in Fed. Rptr. j 2021 WL 867105 (Approx. 3 pages)

2021 WL 867IO5
Only the Westlaw citation is currently available.
United States Court of Appeals, Sixth Circuit.

Don Edward CARTER, Petitioner-Appellant,
v.

Shawn PHILLIPS, Warden, Respondent-Appellee.
No. 20-6038
FILED March 04, 2021
Attorneys and Law Firms
Don Edward Carter, Pikeville, TN, pro se.
Zachary Lewis Barker, Assistant Attorney General, Office of the Attorney General,
Nashville, TN, for Respondent-Appellee.
Before: READLER, Circuit Judge.
ORDER
*1 Don Edward Carter, a pro se Tennessee prisoner, appeals a district court judgment
denying his 28 U.S.C. § 2254 petition for a writ of habeas corpus. He has applied for a
certificate of appealability (“COA”) and has moved to proceed in forma pauperis (“IFP”) on
appeal. See Fed. R. App. P. 22(b), 24(a)(5).
In 1997, a jury convicted Carter of two counts of murder in the shooting deaths of his father
and aunt. The trial court sentenced him to life in prison with the possibility of parole. The
Tennessee Court of Criminal Appeals affirmed the trial court's judgment. State v. Carter,
No. 02C01-9711 -CC-00424, 1998 WL 460326 (Tenn. Crim. App. Aug. 10, 1998). On April
17, 2000, the Tennessee Supreme Court affirmed the appeals court's decision. State v.
Carter, 16 S.W.3d 762 (Tenn. 2000).
On January 18, 2018, Carter filed a post-conviction petition in state trial court, arguing in
part that the one-year statute of limitations should be tolled due to his mental illness.
Finding insufficient evidence to support the tolling claim, the trial court dismissed the
petition. The Tennessee Court of Criminal Appeals affirmed, reasoning that Carter had not
provided documentation to support his allegation that mental incompetence had prevented
him from filing his post-conviction petition for almost eighteen years. Carter v. State, No.
W2018-00285-CCAR3-PC, 2018 WL 6266166 (Tenn. Crim. App. Nov. 30, 2018). On March
28, 2019, the Tennessee Supreme Court denied leave to appeal.
In his § 2254 petition, placed in the prison mailing system on May 20, 2019, Carter
asserted that: (1) his due-process rights were violated when the state courts declined to
equitably toll the statute of limitations for filing his post-conviction petition; (2) he received
ineffective assistance of counsel at trial and on appeal; and (3) the prosecutor committed
misconduct. The State filed a response in opposition on the ground that the petition was
time-barred.
After concluding that Carter was not entitled to equitable tolling, the district court denied
Carter's § 2254 petition as untimely. The court declined to issue a COA.
An individual seeking a COA is required to make a substantial showing of the denial of a
federal constitutional right. See.28 U.S.C. § 2253(c)(2). “A petitioner satisfies this standard
by demonstrating that jurists of reason could disagree with the district court's resolution of
his constitutional claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
When the appeal concerns a district court's procedural ruling, a COA should issue when
the petitioner demonstrates ''that jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was correct in its procedural ruling." Slack
v. McDaniel, 529 U.S. 473, 484 (2000).

https://nextcorrectional.westlaw.com/Document/l2abedc60812011eb91b78705c7189b3d/View/FuHText.html?navigationPath=Search%2Fv1%2Fresults...

1/2

Carter v. Phillips | WestlawNext

* ‘ 6/2/2(J21

A § 2254 petition must be filed within one year after the latest of certain events, including
“the date on which the judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review." 28 U.S.C. § 2244(d)(1)(A). A prisoner may
toll the limitations period by properly filing an application for post-conviction review in state
court, 28 U.S.C. § 2244(d)(2), but a post-conviction petition filed after the lapse of the
limitations period does not revive it, see Vraman v. Brigano, 346 F.3d 598, 602 (6th Cir.
2003).
*2 If a prisoner fails to file a timely § 2254 petition, the prisoner is entitled to equitable
tolling of the limitations period upon a showing that he was diligently pursuing his rights but
was prevented from timely filing the petition by an extraordinary circumstance. Holland v.
Florida, 560 U.S. 631,649 (2010); Jones v. United States, 689 F.3d 621,627 (6th Cir.
2012). Alternatively, the untimeliness of a petition may be excused on the ground of actual
innocence where a petitioner “show[s] that it is more likely than not that no reasonable juror
would have convicted him in the light of [ ] new evidence.’’ McQuiggin v. Perkins, 569 U.S.
383, 399 (2013) (quoting Schlup v. Delo, 513 U.S. 298, 327 (1995)).
Carter concedes that his § 2254 petition is untimely, but he argues that he is entitled to
equitable tolling because; (1) appellate counsel failed to advise him that he could file a
post-conviction petition despite knowing of his mental health history and colorable post­
conviction claims; (2) his mental incompetence prevented him from pursuing a collateral
challenge to his convictions until the time of his post-conviction petition; and (3) a prison
legal aide incorrectly advised him a few years after the conclusion of his direct appeal that
he could not timely file a post-conviction petition. Carter alleges that a different legal aide
explained equitable tolling to him and helped prepare his post-conviction petition. He does
not contend that he is actually innocent.
Jurists of reason would agree that Carter is not entitled to equitable tolling. First, his
ignorance of the law, including on matters such as the availability of state post-conviction
remedies and the related statute of limitations, does not entitle him to equitable tolling. See
Ata v. Scuff, 662 F.3d 736, 743 n.7 (6th Cir. 2011); Reed v. United States, 13 F. App'x 311,
313 (6th Cir, 2001) (holding that ignorance about filing a 28 U.S.C. § 2255 motion did not
toll the one-year limitations period). And inadequate advice from counsel or a prison legal
aide cannot support equitable tolling. See Jurado v. Burt, 337 F.3d 638, 644 (6th Cir. 2003)
(“Generally, a lawyer's mistake is not a valid basis for equitable tolling.”) (citations and
quotations omitted) see also United States v. Robinson, 762 F. App’x 571,577-78 (10th Cir.
2019) (holding that misinformation from an inmate legal assistance was not grounds for
equitable tolling);
Second, mental incompetence will equitably toll the limitations period only if the mental
incompetence caused the defendant's inability to comply with § 2244(d). See Ata, 662 F.3d
at 742. Carter, however, has failed to make sufficiently specific allegations to support
causation. See id. While Carter has presented evidence of his mental disorders and
treatment around the time of his offense and convictions, he has failed to present evidence
of subsequent mental incompetence that prevented him from pursuing post-conviction
remedies. Although he argues that he cannot obtain his mental health records from the
prison system, prison regulations do permit a prisoner to examine the records in certain
situations. See Tenn. Dep't of Corr. Policy 113.52(VI)(B)(3)(d). Carter does not allege that
he requested to examine his records, he does not attempt to present his own detailed
recollection regarding his mental health after the conclusion of his direct appeal, and he
does not provide any information on his mental health or behavior from anyone who was
around him during this time. Thus, he has not made a substantial showing that he is
entitled to equitable tolling.
*3 Accordingly, the court DENIES Carter's COA application and DENIES his IFP motion as
moot.

All Citations
Not Reported in Fed. Rptr., 2021 WL 867105

End of
Document

WestlawNext. © 2021 Thomson Reuters

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

ijfl THOMSON MUTC8S
Thomson Reuters i&fthfproviding legal advice

https://nextcorrectional.westlaw.com/Document/l2abedc60812011 eb91 b78705c7189b3d/View/FullText.html?navigationPath=Search%2Fv1 %2Fresults...

2/2

V *■

No. 20-6038
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DON EDWARD CARTER,

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
SHAWN PHILLIPS, WARDEN,
Respondent-Appellee.

FILED
May 24, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: SUTTON, Chief Judge; CLAY and NALBANDIAN, Circuit Judges.
Don Edward Carter petitions for rehearing en banc of this court’s order entered on March
4, 2021, denying his application for a certificate of appealability. The petition was initially referred
to this panel, on which the original deciding judge does not sit. After review of the petition, this
panel issued an order announcing its conclusion that the original application was properly denied.
The petition was then circulated to all active members of the court, none of whom requested a
vote on the suggestion for an en banc rehearing. Pursuant to established court procedures, the
panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

